                Limited Official Use




 Penetration Test of Internal Revenue Service
             Computer Systems

                    April 2004

       Reference Number: 2004-20-073




The Treasury Inspector General for Tax Administration (TIGTA)
has designated this audit report as Limited Official Use (LOU)
pursuant to Chapter III, Section 2 of the Treasury Security
Manual (TD P 71-10) entitled, “Limited Official Use Information
and Other Legends.” Because this document has been
designated LOU, it may only be made available to those
officials that have a need to know the information contained
within this report in the performance of their official duties.
This report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for disclosure
of this report must be referred to the Disclosure Section within
the TIGTA’s Office of Chief Counsel.




                Limited Official Use
Penetration Test of Internal Revenue Service Computer Systems
                                  Limited Official Use


                                    Project Team
Team Roster
True North                                  TIGTA
James “Bo” Kimbrough (Project Manager)      Steve Mullins (Director, Systems Security,
                                            Information Systems Program)
Scott Cogan (Sr. Consultant)                Ted Grolimund (Audit Manager)
Rinaldi Rampen (Sr. Consultant)             William Lessa (Auditor)




                                  Limited Official Use
